\
t

i

NO.:
f

IN THE

SUPREME COURT OF THE UNITED STATES

•v"

i

■

Mark A. Thacker - Petitioner;
v.

State of Indiana - Respondent(s);
■T4 £""4fV

ON PETITION for writ of certiorari to
UNITED STATES SUPREME COURT

Mr

• 5.V.

APPENDIX OF PETITIONER

♦

jfliED .
i.
■ t <i

4PPEN

*•„ ’

i

t vsi

Attorney for Petitioner:
Mark A. Thacker ##974152
Plaintiff-Thacker, pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, IN 46064-9001

INDEX OF APPENDIX
Appendix A - Marion County Superior Court, Indianapolis, Indiana Order denying
Relief
. r.

Appendix B - Indiana Court of Appeals Decision denying Relief

Appendix C

Indiana Supreme Court Denying Relief

iii
:.i;y Sup;
<
Hi

w

vp:-"'-

vine Cv

:f

;j

\
\

«
' r

Appendix A
Marion County Superior Court, Indianapolis, Indiana Order denying Relief

V,

•n

>r CaviYi.

*

y

J

See Robinson v. State 805 N.E. 2d 783 (Ind. 2004). Sentencing judgments that
*n F M I F D report only days spent in pre-sentence confinement and fail to expressly designate
U CZ IN I C U crecjjt time earned shall be understood by the courts and the DOC to automatically
November 13, 2018
award the number of credit time days equal to the number of pre-sentence
confinement days. You have not demonstrated the DOC has deprived you of earned
credit days.

IN THE SUPERIOR COURT 3 OF MARION COUNTY
STATE OF INDIANA

STATE OF INDIANA,
Respondant,

)

FILED

4

)

NOV 13 2018

vs.
Mark A. Thacker

)

Cause NO.496039603CF034643

Ob. a

CLERl/of THE MARION CIRCUITtfSoil

Petitioner.

Judge Sheila Carlisle
)
i

MOTION TO CORRECT ERRONEOUS SENTENCE
COMES NOW Petitioner, Mark A. Thacker, pro se, and moves this Court to correct the >
i

erroneous sentence imposed on him in this cause pursuant to Indiana Code 35-38-1-15. In

;
I

support, Petitioner states the following

i

1

■ 1. On the 17 day of June, 1997, the Court sentenced Petitioner for the following offense(s).
(f) Murder, Conspiracy to commit Burglary, a Class B felony; and Burglary, a Class B felony.

I

2. Petitioner received an executed term of one-hundred and seventy-five (175) years and the
Court ordered Petitioner committed to the Department of Correction.
3. Petitioner claims his sentence is erroneous for. the following reasons:
a. Petitioner was given 469 days of credit for Jail time served and not Good time credit
according to Indiana Code 35-50-6-3(b) which states that A person assigned to Class I earns (1)
day of good time credit for each day the person is imprisoned for a crime or confined awaiting
trial or sentencing.
b. Petitioner’s Abstract of Judgment will also .show that petitioner was only given credit
for jail time served and not good time credit as allowed under Indiana Code 35-50-6-3(b).
i

l

11

\
«\
1

Appendix B
Indiana Court of Appeals Decision denying Relief

i

” flirt. of

.-.vi o,

•U

DocuSign Envelope ID: E8612995-6452-416F-8BC0-603DFCD78B34

>

'*■
,

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D),
this Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

FILED
Feb 21 2020, 8:53 am

CLERK
Indiana Supreme Court
k Court of Appeals a
and Tax Court

Appellant Pro Se

Attorneys for Appellee

Mark A. Thacker
Pendleton, Indiana

Curtis T. Hill, Jr.
Attorney General
Samuel J. Dayton
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Mark A. Thacker,

February 21, 2020

Appellant-Defendant,

Court of Appeals Case No.
19A-CR-2057

v.

State of Indiana,
Appellee-Plaintiff

Appeal from the
Marion Superior Court
The Honorable
Sheila Carlisle, Judge
The Honorable
Stanley Kroh, Magistrate
Trial Court Cause No.
49G03-9603-CF-34643

Vaidik, Judge.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2057 | February 21, 2020

Page 1 of 3

DocuSign Envelope ID: E8612995-6452-416F-8BC0-603DFCD78B34

« ,.

[i]

In 1997, Mark Thacker was convicted of murder and other offenses and
sentenced to 175 years. See Thacker v. State, 709 N.E.2d 3 (Ind. 1999), reh’g
denied. Thereafter, Thacker sought post-conviction relief. In 2002, the post­
conviction court granted Thacker relief, reducing his sentence to 85 years. See
Appellant’s App. Vol. 13 p. 13. The revised abstract of judgment provides that,
as of June 17, 1997, Thacker had been confined 469 days “prior to sentencing.”
Id. at 19. The revised abstract does not provide the amount of credit time that
Thacker earned for the time he spent in confinement before sentencing.

[2]

In November 2018, Thacker, pro se, filed a motion to correct erroneous
sentence, arguing that his revised abstract of judgment shows that he “was only
given credit for jail time served and not good time credit as allowed under
Indiana Code 35-50-6-3(b).” Id. at 20. That same day, the trial court denied
Thacker’s motion as follows:
See Robinson v. State, 805 N.E.2d 783 (Ind. 2004). Sentencing
judgments that report only days spent in pre-sentence
confinement and fail to expressly designate credit time earned
shall be understood by the courts and the DOC to automatically
award the number of credit time days equal to the number of pre­
sentence confinement days. You have not demonstrated the
DOC has deprived you of earned credit days.
Id. It appears that Thacker first learned that his motion had been denied in
April 2019. See 49G03-9603-CF-34643 (Apr. 25, 2019). In August 2019,
Thacker filed a petition for permission to file a belated notice of appeal pursuant
to Indiana Post-Conviction Rule 2(1), which the trial court denied.
Court of Appeals of Indiana | Memorandum Decision 19A-CR-2057 | February 21, 2020

Page 2 of 3

DocuSign Envelope ID: E8612995-6452-416F-8BC0-603DFCD78B34

*.»

[3]

Thacker now appeals, making several arguments why the trial court should
have given him permission to file a belated notice of appeal so that he could
challenge the denial of his motion to correct erroneous sentence. We first note
that Post-Conviction Rule 2(1) cannot be used to salvage a defendant’s late
appeal of a denial of a motion to correct erroneous sentence. See In re Adoption
of O.R., 16 N.E.3d 965, 970 n.2 (Ind. 2014) (citing Davis v. State, 771 N.E.2d 647
(Ind. 2002)). But even if Thacker were allowed to bring a belated appeal, he
would not be entitled to the substantive relief he seeks. As our Supreme Court
explained in Robinson:
In an effort to facilitate the fair and expeditious resolution of
appellate litigation arising from these judgments, we adopt the
following appellate presumption. Sentencing judgments that
report only days spent in pre-sentence confinement and fail to
expressly designate credit time earned shall be understood by
courts and by the Department of Correction automatically to
award the number of credit time days equal to the number of pre­
sentence confinement days. . . . Because the omission of
designation of the statutory credit time entitlement is thus
corrected by this presumption, such omission may not be raised
as an erroneous sentence.
805 N.E.2d at 792 (emphasis added). Accordingly, we affirm the trial court’s
denial of Thacker’s petition for permission to file a belated notice of appeal.

[4]

Affirmed.

Najam, J., and Tavitas, J., concur.

Court of Appeals of Indiana | Memorandum Decision 19A-CR-2057 | February 21, 2020

Page 3 of 3

«

* *s

Appendix C
Indiana Supreme Court Denying Relief

rtii Sups

Vf*-

'

$n tfje

31nbtana Supreme Court
Mark Anthony Thacker,
Appellant,

Court of Appeals Case No.
19A-PC-2057
Trial Court Case No.
49G03-9603-CF-34643

v.
State of Indiana,
Appellee.

FILED
Jul 31 2020, 2:17 pm

CLERK

Indiana Supreme Court
Court of Appeals ,
and Tax Court *0

Order
The Court of Appeals issued a memorandum decision on February 21, 2020, making a
petition to transfer due no later than April 6, 2020, if rehearing was not sought. Ind. Appellate
Rules 25, 57(C)(1). On May 18, 2020, with no petition for rehearing or transfer having been
filed, the Clerk of Courts certified the memorandum decision.
Then, postmarked May 22, Appellant tendered a petition to transfer, which the Clerk
rejected as untimely and as defective for lacking a table of authorities. Appellant now requests
that the Clerk be ordered to file his petition to transfer, correctly noting that Indiana Appellate
Rule 57(G), governing the content and arrangement of petitions to transfer, does not state that a
table of authorities is required. However, nothing in the motion addresses the reasons for the
extreme untimeliness of Appellant’s petition. Accordingly, even though the petition to transfer
was not defective in form, he has failed to show good cause for allowing it to be filed belatedly.
Being duly advised, the Court DENIES Appellant’s “Motion to Order Clerk to File
Petition to Transfer.” This appeal is at an end.
Done at Indianapolis, Indiana, on 7/31/2020

Loretta H. Rush
Chief Justice of Indiana

